January 21, 2010

KERRY L. WOLNY
DISTRICT MANAGER, SIERRA COASTAL DISTRICT

SUBJECT: Management Advisory Report – Mojave Post Office Mail Processing
         Changes (Report Number EN-MA-10-002)

This report presents the results of our review of the Mojave Post Office (PO) (Project
Number 09XG032EN000). Our objective was to assess recent and proposed changes1
to mail processing operations at the Mojave PO and compliance with applicable
policies. This report responds to a congressional inquiry regarding concerns about
expenses associated with changes to mail processing operations at the Mojave PO and
impacts on service. This audit addresses operational risk. See Appendix A for
additional information about this audit.

Conclusion

Sierra Coastal District management’s analyses and business case supporting the
changes made from November 2008 through February 2009 to destinating mail
processing operations at the Mojave PO were reasonable. Management prepared a
business case to move most of the destinating mail processing operations out of the
Mojave PO. The business case projected annual savings of $5,044,829, including
transportation savings of $470,375.

We found that several potential service standard downgrades could result from the
changes, but management stated they made operational and transportation changes to
ensure no service performance downgrades occurred. Although we could not validate
the actions taken to eliminate the downgrades, intelligent mail barcodes2 will provide an
additional service measurement tool in the future. Management implemented these
operational changes without completing an Area Mail Processing (AMP)3 study, since
an AMP study was not required because the changes did not include all destinating
operations at the Mojave PO. During our review, management announced they would
conduct an AMP study for the Mojave PO, which will provide a more detailed and

1
  Recent change refers to a February 27, 2009, letter from Sierra Coastal District management to the vice president,
Pacific Area Operations outlining the business case for transferring Mojave PO destinating mail processing
operations to the Bakersfield and Santa Clarita Processing and Distribution Centers (P&DC). The proposed change
refers to the business case management developed to move all mail processing operations out of the Mojave PO.
2
  The intelligent mail barcode will be used to sort and track letters and flats. It represents 20 digits of tracking data
and up to 11 digits of ZIP Code™ information and is currently scheduled for implementation in March 2010.
3
  AMP is the consolidation of all originating and/or destinating distribution operations from one or more post
offices/facilities into other automated processing facilities for the purpose of improving operational efficiency and/or
service.
Mojave Post Office Mail Processing Changes                                                                 EN-MA-10-002



complete analysis of the mail processing changes and subsequent impacts. We did not
assess these proposed changes since they are in the review process.

Assessment of Recent and Proposed Changes to Mail Processing Operations at
the Mojave PO

In February 2009, Sierra Coastal District management moved 80 percent of its
destinating mail processing operations from the Mojave PO without conducting an AMP
study, resulting in some potential First-Class Mail® (FCM) service standard downgrades
and the involuntary reassignments of 81 Mojave PO employees. According to Sierra
Coastal District management, mail volumes were down and processing the Lancaster
and Palmdale POs’ mail at the Mojave PO was not efficient or cost effective.
Management did not complete an AMP study because they were not required to under
Postal Service Handbook PO-4084 as they were not moving all mail processing
operations from the Mojave PO.5 However, management prepared a business case
that included components of an AMP study to move destinating mail processing
operations out of the Mojave PO. The business case projected annual savings of
$5,044,829, including transportation savings of $470,375. On September 10, 2009,
management began an AMP study to examine moving all destinating mail operations
from the Mojave PO to the Santa Clarita and/or Bakersfield P&DCs.

As a result of the November 2008 through February 2009 mail processing changes,
there were nine potential service downgrades, 107 service upgrades, and the
involuntarily reassignment of 81 Mojave PO employees to other positions within the
district in accordance with Article 12 excessing requirements. Management complied
with Article 12 of the National Agreement6 by following the notification processes and
procedures with employees and the unions. Because management elected to begin an
AMP study during our review, we are not making any recommendations in this report.
See Appendix B for our detailed analysis of this topic.




4
  Area Mail Processing Guidelines, March 2008.
5
  According to an approved AMP, as of August 2007 all mail originating at the Mojave PO was sent to the Bakersfield
P&DC for processing.
6
  According to the National Agreement, a clerk craft employee involuntarily reassigned shall be entitled at the time of
reassignment to file a written request to return to the first vacancy (at the same or lower salary level) in the craft and
installation from which reassigned.


                                                            2
Mojave Post Office Mail Processing Changes                                  EN-MA-10-002



Management’s Comments

Management agreed with the accuracy of the report. Management also stated that it is
completing the proposed AMP study and has not made a decision on the movement of
destinating operations for the Mojave PO. In addition, management stated that no
service downgrades occurred with the movement of Lancaster and Palmdale mail. See
Appendix E for management’s comments, in their entirety.

Evaluation of Management’s Comments

Management’s actions to complete an AMP study should resolve the issues identified in
this report. The U.S. Postal Service Office of Inspector General will monitor the study
and may assess the service implications of mail processing changes at the Mojave PO
in the future.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Michael Magalski, director,
Network Optimization Directorate, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

cc:    Patrick R. Donahoe
       Steven J. Forte
       Jordan M. Small
       Frank Neri
       Robert W. Field
       Sally K. Haring




                                             3
Mojave Post Office Mail Processing Changes                                                              EN-MA-10-002



                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service’s strategic objectives are defined in its Strategic Transformation
Plan,7 which states that the agency is committed to improving its operational efficiency
by consolidating mail processing operations when feasible. In addition, the President’s
Commission8 found the Postal Service had more facilities than needed and
recommended optimizing the facility network by closing and consolidating unneeded
processing centers. The Postal Accountability and Enhancement Act9 (Postal Act of
2006) further encourages the Postal Service to continue streamlining its processing and
distribution network to eliminate excess costs.

Handbook PO-408 provides a framework for consolidating operations in the mail
processing network and performing Post-Implementation Reviews (PIR). These
guidelines state that consolidations should improve operational efficiency and service,
make optimum use of available resources, and ensure management’s accountability for
consolidating operations. The Postal Service issued revised AMP Guidelines in March
2008. The Postal Service uses the AMP process to consolidate mail processing
functions, eliminate excess capacity, increase efficiency, and make better use of
resources.

The Bakersfield P&DC, Santa Clarita P&DC, and Mojave PO are part of the Sierra
Coastal Performance Cluster in the Pacific Area. The performance cluster is
approximately 43,820 square miles in size. In January 2006, management initially
consolidated a majority of the originating mail from the Mojave PO to the Santa Clarita
P&DC. In August 2007, management realigned mail processing and sent all mail
originating at the Mojave PO to the Bakersfield P&DC for processing, according to the
approved AMP. The AMP covered the 3-digit ZIP Code 935.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to assess recent and proposed changes to mail processing
operations at the Mojave PO and their compliance with applicable policies. To
accomplish the objective, we interviewed managers and conducted site visits to the
Mojave PO and the Santa Clarita P&DC where mail volumes were impacted. We
performed a limited review of Article 12 procedures the Postal Service followed to
excess employees from the Mojave PO. We also reviewed documentation
management provided, including business case components of an AMP. We evaluated
service performance after the mail processing operations were moved.

We relied on several Postal Service data systems: the Enterprise Data Warehouse
(EDW), Web Service Standard Directory, and the Transportation Contract Support

7
  Strategic Transformation Plan 2006-2010, Annual Progress Report, December 2006.
8
  The President’s Commission on the United States Postal Service reported its findings July 31, 2003.
9
  Postal Accountability and Enhancement Act, Public Law 109-435, dated December 20, 2006.


                                                         4
Mojave Post Office Mail Processing Changes                                        EN-MA-10-002



System. We did not test controls over these systems; however, we validated data
during discussions with management. We conducted this review from July 2009
through January 2010 in accordance with the President’s Council on Integrity and
Efficiency, Quality Standards for Inspections. We discussed our observations and
conclusions with management officials on October 27, 2009, and included their
comments where appropriate.

PRIOR AUDIT COVERAGE

                       Report                Final Report
 Report Title                                                       Report Results
                      Number                     Date
Mojave Post         EN-AR-08-006               9/7/2008     Sierra Coastal District
Office Facility                                             management did not route
Consolidation                                               Bakersfield P&DC mail according
                                                            to the approved AMP.
                                                            Additionally, transportation
                                                            changes were not accurately
                                                            reported and service standards
                                                            were not met for three sectional
                                                            center facilities (Bakersfield,
                                                            Fresno, and Mojave) in the Sierra
                                                            Coastal Performance Cluster.
Marysville          EN-AR-08-003              4/16/2008     Sacramento District management
Processing                                                  did not route mail in accordance
and                                                         with the approved AMP due to
Distribution                                                service performance issues at the
Facility                                                    AMP-approved site (Sacramento
Consolidation                                               P&DC). Additionally, the two
                                                            PIRs and the AMP did not report
                                                            the rerouted mail and service
                                                            impacts.
Review of the       EN-MA-08-001             10/19/2009     The Postal Service’s revisions to
Automated                                                   AMP guidance have resulted in
Area Mail                                                   significant improvements.
Processing                                                  However, the report outlines
Worksheets                                                  concerns with the planned
                                                            methods of calculating potential
                                                            workhour and transportation
                                                            savings and other disclosure
                                                            items, including communications,
                                                            service, performance indicators,
                                                            and supervisory ratios.




                                                   5
Mojave Post Office Mail Processing Changes                                                   EN-MA-10-002



                                  APPENDIX B: DETAILED ANALYSIS

Assessment of Recent and Proposed Changes to Mail Processing Operations at
the Mojave PO

In fiscal year (FY) 2009, the Postal Service moved mail processing operations for the
Mojave PO to the Santa Clarita P&DC. The Sierra Coastal District started moving mail
processing operations out of the Mojave PO in November 2008 when they moved
Lancaster PO Standard Mail to the Santa Clarita P&DC for processing. In January
2009, Sierra Coastal District management began processing all of the Lancaster and
Palmdale POs’ delivery point sequence FCM volume at the Santa Clarita P&DC. The
mail volume from the two POs was approximately 80 percent of the Mojave PO’s mail
volume. According to district management, mail volumes were down and processing
the Lancaster and Palmdale POs’ mail at the Mojave PO was not efficient or cost
effective. See Appendix C for a timeline of mail processing changes at the Mojave PO.

In a February 27, 2009, letter to the vice president, Pacific Area Operations, Sierra
Coastal District management provided a business case outlining the rationale for
transferring Mojave PO mail processing operations to the Santa Clarita P&DC.
Although approval10 was not granted until after the mail was moved, the key elements of
the business case supporting the movement of the mail appear to be reasonable for
reducing costs and excessing employees. District management considered processing
consistencies, equipment standardization, economies of scale, achievement of service
objectives, and customer satisfaction. The goal of the business case was to lower costs
and increase efficiency. Management projected a total annual savings of $5,044,829
and a one-time cost of $107,212. See Table 1 for a list of projected savings:

               Table 1: Total Projected Savings for Mojave Workload Transfer


                         Function 1 Workhour Savings                   $         3,160,614
                         Executive and Administrative
                         Schedule Workhour Savings                                 200,000
                         District Transportation Savings                           470,375
                         Area Transportation Savings                               313,840
                         Maintenance Savings                                       900,000
                         Total/ Annual Savings                         $         5,044,829

                         Total One-Time Costs                          $           107,212


On April 24, 2009, the Pacific Area office gave permission to the district to proceed with
workload migrations into the Santa Clarita and Bakersfield P&DCs as requested.
Additionally, the Pacific Area office instructed the district to baseline current mail

10
     Management is not required to obtain approval prior to making an operational change.


                                                           6
Mojave Post Office Mail Processing Changes                                                               EN-MA-10-002



processing operations for further analysis. Management planned to assess the results
of the transfer of the Mojave PO mail processing operations to the Santa Clarita P&DC
over the next year.

The Postal Service’s policy is to conduct an AMP study if all originating and/or
destinating mail processing is moved from a facility. Management decided not to
complete an AMP study because they were not moving all destinating mail processing
from the Mojave PO. However, management developed a business case in April 2009
outlining their proposal to move destinating mail processing operations from the Mojave
PO.

We reviewed key components of the district management’s business case and found it
to be reasonable for reducing transportation costs and excessing employees.

Service

According to the Postal Service SSD,11 there were service standard changes associated
with mail transferred from the Mojave PO to the Santa Clarita P&DC. Service standards
were upgraded for 107 ZIP Code pairs and downgraded for nine ZIP Code pairs. The
downgrades were for the Lancaster and Palmdale PO (ZIP Code 935) mail volume that
was moved from the Mojave PO to the Santa Clarita P&DC. Table 2 shows a list of the
potential service standard changes to Mojave mail processed at the Santa Clarita
P&DC.




11
  A web-based system that provides mail class service standards information to internal customers via the Postal
Service’s intranet. A service standard is an expectation of the Postal Service to deliver a mailpiece to its intended
destination within a prescribed number of days following proper deposit by a postal customer. The system allows
users to maintain service standards between all originating and destination ZIP Code pairs for all classes of mail
except Express Mail®.



                                                           7
Mojave Post Office Mail Processing Changes                                                     EN-MA-10-002



               Table 2: Service Standard Changes to Mojave Mail Processed
                                 at the Santa Clarita P&DC
                                                                                       Package      Standard
                                         Priority Mail      FCM        Periodicals     Services       Mail

 Destination                              Change in       Change in     Change in     Change in Change in
  ZIP Code        Destination Name         Service         Service       Service       Service   Service
     900           Los Angeles, CA         Upgrade         Upgrade       Upgrade          ‐      Upgrade
       901        Los Angeles, CA           Upgrade        Upgrade       Upgrade          ‐         Upgrade
       902         Inglewood, CA            Upgrade        Upgrade       Upgrade          ‐         Upgrade
       903         Inglewood, CA            Upgrade        Upgrade       Upgrade          ‐         Upgrade
       904         Inglewood, CA            Upgrade        Upgrade       Upgrade          ‐         Upgrade
       905        Long Beach, CA            Upgrade        Upgrade       Upgrade          ‐         Upgrade
       906        Long Beach, CA            Upgrade        Upgrade       Upgrade          ‐         Upgrade
       907        Long Beach, CA            Upgrade        Upgrade       Upgrade          ‐         Upgrade
       908        Long Beach, CA            Upgrade        Upgrade       Upgrade          ‐         Upgrade
       910         Pasadena, CA             Upgrade        Upgrade       Upgrade       Upgrade      Upgrade
       911         Pasadena, CA             Upgrade        Upgrade       Upgrade       Upgrade      Upgrade
       912         Pasadena, CA             Upgrade        Upgrade       Upgrade       Upgrade      Upgrade
       913          Van Nuys, CA            Upgrade        Upgrade       Upgrade       Upgrade      Upgrade
       914          Van Nuys, CA            Upgrade        Upgrade       Upgrade       Upgrade      Upgrade
       915          Van Nuys, CA            Upgrade        Upgrade       Upgrade       Upgrade      Upgrade
       916          Van Nuys, CA            Upgrade        Upgrade       Upgrade       Upgrade      Upgrade
       917           Industry, CA           Upgrade        Upgrade       Upgrade          ‐         Upgrade
       918           Industry, CA           Upgrade        Upgrade       Upgrade          ‐         Upgrade
     919-921       San Diego, CA               ‐              ‐             ‐             ‐        3 Upgrades
     922-925     San Bernardino, CA            ‐              ‐             ‐             ‐        4 Upgrades
       926         Santa Ana, CA            Upgrade        Upgrade       Upgrade          ‐         Upgrade
       927         Santa Ana, CA            Upgrade        Upgrade       Upgrade          ‐         Upgrade
       928          Anaheim, CA             Upgrade        Upgrade       Upgrade          ‐         Upgrade
       930           Oxnard, CA             Upgrade        Upgrade       Upgrade          ‐         Upgrade
      931      Santa Barbara, CA              ‐               ‐            ‐               ‐         Upgrade
      932       Bakersfield, CA           Downgrade       Downgrade    Downgrade           ‐         Upgrade
      933       Bakersfield, CA           Downgrade       Downgrade    Downgrade           ‐         Upgrade
      934      Santa Barbara, CA              ‐               ‐            ‐               ‐         Upgrade
      935         Mojave, CA              Downgrade       Downgrade    Downgrade           ‐         Upgrade
         TOTAL UPGRADES                      22              22           22               7           34
        TOTAL DOWNGRADES                      3               3            3               0            0


Sierra Coastal District management stated they made operational and transportation
changes to ensure there were no service downgrades associated with mail transferred
from the Mojave PO to the Santa Clarita P&DC. Although we could not validate the
actions taken to eliminate the downgrades, intelligent mail barcodes will provide an
additional service measurement tool in the future.

We used the EDW to review External First-Class Measurement (EXFC)12 service
performance for FY 2009. We could not review prior EXFC service performance before

12
  An external, independent measurement system the Postal Service uses to measure service performance. The
system provides quarterly estimates of FCM service performance.


                                                      8
Mojave Post Office Mail Processing Changes                                     EN-MA-10-002



the changes were made because Mojave was a non-EXFC facility at that time. The
service performance measurements for overnight, 2-Day, and 3-Day service became
available in FY 2009. EXFC data for FYs 2009 and 2010 show that FCM service
performance appears to have improved since transferring the mail from the Mojave PO
to the Santa Clarita P&DC. See Appendix D for service performance trends.

Transportation Savings

Projected transportation savings reported in the Mojave Workload Transfer letter to the
Pacific Area office were not fully supported. The Sierra Coastal District projected cost
savings of approximately $470,375 for the elimination of contracts, detours, and trips
going to the Mojave PO. However, we could not validate management’s projection
because district management was not able to provide supporting documentation. On
August 1, 2009, Santa Clarita P&DC transportation management submitted three
service change requests for highway contract routes from the Mojave PO to the Santa
Clarita P&DC totaling $76,618. These service change requests are part of
management’s projected transportation savings.

                        Table 3: Proposed Highway Contract Route
                          Changes for Mojave Workload Transfer


                                                                 Proposed
           Proposed Start Date         Highway Contract Route     Savings
                8/1/2009                       93527                 $0
                  8/1/2009                     93537               46,407
                  8/1/2009                     93566               30,211
                                    Total                         $76,618


Compliance with Applicable Policies – Employee Impacts

Prior to submitting the business case, the Sierra Coastal District anticipated the need to
excess employees from the Mojave PO and began securing positions for impacted
employees. On February 27, 2009, the Sierra Coastal District requested authorization
to involuntarily reassign 61 clerks and 16 maintenance employees pursuant to
provisions of Article 12.5.C.5 of the National Agreement and four executive and
administrative schedule employees. The following positions were impacted:

      Thirty-eight full-time clerks
      Twenty-three part-time flexible (PTF) clerks
      Nine electronic technicians
      Three maintenance mechanics
      One maintenance support clerk
      Three custodians
      Three customer service supervisors


                                               9
Mojave Post Office Mail Processing Changes                                  EN-MA-10-002



      One maintenance manager

Management withheld 75 full-time carrier vacancies, seven part-time regular clerk
vacancies, nine custodial vacancies, 11 vacant PTF-carrier positions, and 10 PTF-clerk
positions within a 50-mile commute of the Mojave PO. After these positions became
vacant, the district withheld them to ensure a pool of positions was available for the
excessed employees. We found the following actions indicating the Postal Service
complied with Article 12 requirements when excessing the employees:

      January 14, 2009 – District leaders held town hall meetings with Mojave PO
       employees.

      June 21, 2009 – District leaders met with local American Postal Workers Union
       (APWU) and the Mojave PO postmaster (PM) to review excessing timeline.

      June 22, 2009 – the Mojave PO PM issued excessing letters and conducted a
       stand-up talk with the local APWU.

      July 1, 2009 – the district complement coordinator sent job award preference
       postings to the Mojave PO PM.

      July 25, 2009 – the district management issued award letters and reporting
       instructions to excessed employees.

      August 29, 2009 – Postal Service Notice of Personnel Action Forms (Postal
       Service Form 50) for Mojave PO employees were processed.




                                             10
Mojave Post Office Mail Processing Changes                                                                                          EN-MA-10-002



                                      APPENDIX C: MOJAVE PO MAIL PROCESSING CHANGES TIMELINE



                              Mojave Post Office Mail Processing Changes

                     Memo from                 District        Business Case        Workload
                                                            submitted to Area                                             Employees
                     Area ‐ AMP              Leadership                              Transfer
                                                              to move South                                             Excessed from
                   Implemented as             meets w/                            Approval from
                                                             935 ZIPs to Santa                                            Mojave PO
                      Approved               Mojave PO                             Area Office
                                                                Clarita PDC                                              Aug. 1, 2009
                    Sep t. 25, 2007          employees                             Apr 24, 2009
                                                               Feb. 27, 2009




                 Sep-07    Nov-08      Dec-08    Jan-09   Feb-09   Mar-09    Apr-09     May-09    Jun-09      Jul-09   Aug-09   Sep-09   Oct-09




                                      Lancaster DPS                                   Congressional Inquiry                      Sierra Coastal
                                      ZIPs Processed                                  to Review Mojave PO                            District
                                         at Santa                                        Mail Processing                        Submitted AMP
                                        Clarita PDC                                         Changes                                 Proposal
                                       Dec. 1, 2008        Palmdale DPS                   May 21, 2009
                                                               ZIPS                                                              Sept. 10, 2009
                                                           Processed at
                                                           Santa Clarita
                                                               PDC




                                                                                 11
Mojave Post Office Mail Processing Changes                       EN-MA-10-002



                     APPENDIX D: MOJAVE PO SERVICE PERFORMANCE




                                             12
Mojave Post Office Mail Processing Changes        EN-MA-10-002




                                             13
Mojave Post Office Mail Processing Changes                 EN-MA-10-002




                       APPENDIX E: MANAGEMENT’S COMMENTS




                                             14
